OFFICE OF INSPECTOR GENERAL


FOLLOW-UP AUDIT OF
USAID/RUSSIA’S DEMOCRACY
PROGRAM
AUDIT REPORT NO. 8-118-07-005-P
September 12, 2007




FRANKFURT, GERMANY
         Office of Inspector General



September 12, 2007

MEMORANDUM

TO:           USAID/Russia Acting Mission Director, Janina Jaruzelski

FROM:         Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:      Follow-up Audit of USAID/Russia’s Democracy Program
              (Report Number 8-118-07-005-P)


This memorandum transmits the Office of Inspector General’s final report on the subject
audit. The report contains no recommendations for your action.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during this audit.



.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective ............................................................................................................ 2

Audit Findings ................................................................................................................. 3

Evaluation of Management Comments ......................................................................... 6

Appendix I – Scope and Methodology .......................................................................... 7

Appendix II – Management Comments ......................................................................... 8
SUMMARY OF RESULTS
This follow-up audit was conducted by the Regional Inspector General in Frankfurt,
Germany, to determine whether USAID/Russia had taken appropriate corrective actions
on six recommendations previously reported in the Office of the Inspector General’s
Audit of USAID/Russia’s Democracy Program, Audit Report No. B-118-05-002-P, dated
March 31, 2005 (see page 2).

In response to the aforementioned audit, USAID/Russia took appropriate action to justify
final action on five of the audit’s six recommendations. These actions included:

      Reviewing and updating performance indicators used to track progress within the
       Mission’s democracy program;

      Training program staff on developing and maintaining performance indicators
       and evaluating indicator data for quality assurance purposes; and

      Developing a mission order documenting the Mission’s decision and justification
       for not using Strategic Objective Teams and maintaining its existing modular
       team structure instead (see pages 3-4).

For the sixth audit recommendation─requiring Cognizant Technical Officers (CTOs) to
regularly compare actual results with planned accomplishments under the Mission’s
contracts and grants─USAID/Russia had not implemented adequate measures to justify
final action on the recommendation. Specifically, USAID/Russia had not updated its
portfolio review guidance or changed the format of its Activity Management Reports as
proposed in the Mission’s written response to the original audit report.

After this issue was brought to USAID/Russia’s attention, the Mission amended its
existing procedures to address the recommendation. Specifically, the Mission issued
revised guidance for annual activity reviews that now requires a comparison of activity
results with the planned results contained in the work plans for each contract and
agreement. This additional action was deemed to be sufficient to address the auditors’
original concerns and justify final action on the recommendation (see pages 4-5).

In its comments regarding this audit, USAID/Russia agreed with the findings and the
recommendation to strengthen mission guidance on performing Activity Implementation
Reviews (AIRs). The Mission noted that these annual reviews have long incorporated
the comparison of activity results with each program’s planned results, but stated that it
expected the implementation of the report’s recommendation will improve the Mission’s
internal procedures (see page 6).




                                                                                        1
BACKGROUND
In March 2005, USAID’s Office of Inspector General issued an audit report focused on
USAID/Russia’s Democracy Program. The objective of the audit was to determine how
USAID/Russia spent its funds under this program and whether the Mission effectively
monitored the program to ensure that intended results were achieved.

The audit determined that USAID/Russia should review its performance indicators to
ensure that they provide the most appropriate information for determining program
achievements. The audit also concluded that the Mission should better document its
periodic efforts to review and revise performance indicators, and clarify responsibilities
for verifying performance data. Finally, the audit report stated that the Mission needed
to document its compliance with guidance related to plans for establishing strategic
objective teams, track the progress of program activity against established performance
targets, and establish a training plan for CTOs.

The report contained six recommendations to correct these deficiencies. USAID/Russia
concurred with all six of the recommendations and proposed specific procedural actions
to address these concerns.


AUDIT OBJECTIVE
This follow-up audit was added to the Office of Inspector General's fiscal year 2007
Annual Plan and was conducted to follow-up on actions taken to address formal
recommendations associated with an earlier audit of USAID/Russia’s Democracy
Program. Specifically, this audit was conducted to answer the following question:

      Did USAID/Russia take corrective actions to justify final action on the
       recommendations from Audit Report No. B-118-05-002-P, dated March 31,
       2005?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        2
AUDIT FINDINGS
USAID/Russia had taken appropriate actions to justify final action on five of the six audit
recommendations previously reported, as discussed below.


Recommendation No. 1: We recommend that USAID/Russia review and revise, as
needed, performance indicators for the democracy and local governance program to
ensure that data collected provides information necessary to determine progress
towards goals.

In the Mission’s comments to the draft audit report, USAID/Russia agreed to reassess its
current set of indicators and ensure that all proposed indicators have appropriate,
adequate and verifiable data sources.

As evidence of the actions taken, the Mission provided documents related to the revised
portfolio review process. These documents indicated that each project was examined to
ensure that it had clearly stated goals and objectives and that appropriate performance
measures and targets had been established to allow for the tracking of program
progress. As a result of this review, the Mission’s Office of Democracy identified
numerous instances where indicators needed to be modified and procedures for
reviewing data quality needed to be strengthened. Mission records documenting the
Mission’s review and revision of its performance indicators for the democracy program
were deemed to be sufficient to justify final action for the recommendation.


Recommendation No. 2: We recommend that USAID/Russia document its process to
periodically review and update its democracy and governance program performance
indicators.

In its written comments to the draft audit report, USAID/Russia agreed to improve its
internal documentation of program management decisions and ensure that the results of
data quality assessments become an element of the internal portfolio review. The
Mission planned to produce a memorandum to the file at the end of each review to
document the results of the review and to consult during subsequent reviews to ensure
that recommended changes and adjustments are completed.

As evidence of the actions taken, the Mission provided documents related to its
Democracy Office’s most recent data quality assessment. The resulting memorandum
to the file clearly stated the process used to assess the quality of data and the outcome
of the assessment. The documentation submitted detailing the Mission’s review of
indicators was deemed sufficient to justify final action for this recommendation.


Recommendation No. 3: We recommend that USAID/Russia clearly define staff
responsibilities for the verification of indicator data and the review of supporting
documentation.




                                                                                         3
In response to the audit report, USAID/Russia agreed to establish an internal training
program for activity managers. This training would review performance indicator
standards with CTOs, explain how to evaluate indicator data and program progress
during site visits with implementing partners, and provide instruction on how best to
document findings and recommendations.

As evidence of the actions taken, the Mission provided materials related to a training
course on indicators and data quality that had been conducted in August 2005. These
materials included a roster of attendees and an outline of the training presentation. The
training covered topics related to the development of useful indictors, the collection of
data, and efforts to maintain data quality. The documentation submitted detailing the
training effort was deemed sufficient to justify final action on this recommendation.


Recommendation No. 4: We recommend that USAID/Russia implement USAID
requirements to either adopt Strategic Objective (SO) Teams or document its decision to
adopt an alternative method of managing its activities.

In response to this recommendation, USAID/Russia agreed to document the decision
not to use a SO Team structure.

As evidence of the actions taken, USAID/Russia provided a copy of Mission Order
RU202a, which documented the Mission’s decision and justification for maintaining
modular teams instead of establishing an SO Team structure. The Mission Order
explained that due to the size, diversity, complexity and importance of Russia, modular
teams would offer the most practical and effective organizational approach. The
documentation submitted justified the Mission’s organizational structure was deemed to
be sufficient to justify final action for the recommendation.


Recommendation No. 6: We recommend that USAID/Russia develop a training plan
that ensures that democracy and local governance program CTOs obtain the needed
competencies and certifications.

The Mission agreed to refine and update a training plan for employees who had not yet
been certified as CTOs, but who were expected to be designated as CTOs.

As evidence of actions taken, USAID/Russia provided an updated listing of CTOs
showing the dates that CTO training had been completed. Several CTOs were selected
for interviews, and they confirmed that the training had been provided and completed.
The documentation submitted showing the status of CTO training was deemed sufficient
to justify final action for the recommendation.


USAID/Russia, however, had not yet taken appropriate measures to justify final action
on one audit recommendation, as discussed below.

Recommendation No. 5: We recommend that USAID/Russia require democracy and
local governance program CTOs to periodically report performance information that
compares actual performance against planned results and accomplishments.



                                                                                       4
In its response to the initial audit, USAID/Russia agreed to issue updated guidance on
annual portfolio reviews, which would include procedures formalizing the process of
comparing actual performance to planned results. The Mission also agreed to require
that each Activity Monitoring Report (AMR) contain information on performance, funding,
and implementation problems that would allow mangers to more easily assess the
performance of each contract or grant.

As evidence of actions taken, USAID/Russia provided updated guidance for portfolio
reviews (currently referred to as Activity Implementation Reviews). The revised
guidance required that during the reviews, staff should assess performance using the
officially approved indicators or proxies, if data is not available. However, by focusing on
indicator data in comparing planned results and outcomes with those actually achieved,
the scope of the review appeared to be unnecessarily limited. Many grant and contract
activities have planned outputs, results, and deliverables that are not related to indicator
data. Unless Mission guidance requires that the progress under these activities also be
subject to review and assessment, the intent of the recommendation will not be met.

In addition to the updated guidance, the Mission provided the most recent AMRs for the
Democracy Program’s contracts and grants. However, none of the AMRs contained
information on performance or problems that would allow managers to assess current
progress. According to USAID/Russia Program Office staff, because the AMRs would
be made available to the public, the Mission decided not to include detailed performance
information in these documents.

Because the Mission had not fully implemented the proposed actions to address the
recommendation, either through updating guidance for Portfolio Reviews or by revising
its AMRs, final action on the recommendation was not initially deemed to be justified.

In response to this finding, USAID/Russia agreed to take immediate action. Specifically,
USAID/Russia issued revised guidance for annual activity reviews that now requires a
comparison of actual activity results with the planned results specified in the work plans
for each contract and agreement. We determined that the implementation of this
guidance will meet the goals and intent of the original recommendation; consequently,
this additional action was deemed sufficient to justify final action.




                                                                                          5
EVALUATION OF
MANAGEMENT COMMENTS
In its comments regarding this audit, USAID/Russia agreed with the findings and the
recommendation to strengthen Mission guidance for performing Activity Implementation
Reviews. The Mission noted that these reviews have long incorporated the comparison
of actual activity results with each program’s planned results. Nevertheless, the Mission
stated that the implementation of the report’s recommendation will further improve the
Mission’s internal procedures in this area.




                                                                                       6
                                                                               Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Frankfurt conducted this follow-up audit of
USAID/Russia’s Democracy Program in accordance with generally accepted
government auditing standards. The purpose of the audit was to determine whether
USAID/Russia had taken sufficient corrective actions to justify final action on the
recommendations from Audit Report No. B-118-05-002-P, dated March 31, 2005. The
audit scope covered all six recommendations from this report.

In planning and performing the audit, the audit team reviewed relevant guidance related
to Mission, USAID/Washington, and OIG responsibilities related to actions taken in
response to audit recommendations. The audit team considered guidance provided by
the USAID/Russia Management Control Review Committee, as well as subsequent audit
work that had been performed at USAID/Russia, including a recent audit of the Mission’s
HIV/AIDS activities.

In planning and performing this limited scope audit, the audit team assessed the
appropriateness and effectiveness of the new procedures and other measures
implemented by the Mission in response to each audit recommendation. The audit
fieldwork was conducted from May 21 to June 1, 2007 at the USAID/Russia Mission in
Moscow, Russia.


Methodology
In performing the audit work, the audit team obtained and reviewed the Audit of
USAID/Russia’s Democracy Program, dated March 31, 2005. The team also reviewed
the Mission’s written response to the audit, which outlined the specific steps to be taken
to correct identified deficiencies.

For each of the six audit recommendations, the audit team requested and obtained
documentation that adequately reflected Mission actions implemented in response to the
audit. This documentation included data quality assessments, revised performance
indicators, revised Activity Monitoring Reports, revised CTO guidance (including mission
orders), CTO training materials, and CTO presentations made at annual implementation
reviews. The audit team also interviewed appropriate officials, including CTOs to verify
implementation of the various measures. Following these efforts, the audit team formed
a judgment about whether or not the actions taken by the Mission justified final action
under each recommendation.




                                                                                        7
                                                                         Appendix II




                                                                     Moscow, Russia

                                                                     August 24, 2007


UNCLASSIFIED
MEMORANDUM

TO:        Regional Inspector General, Frankfurt, Gerard M. Custer

FROM:      USAID/Russia Acting Mission Director, Janina Jaruzelski /s/

SUBJECT:   Follow-Up Audit of USAID/Russia’s Democracy Program

           USAID/Russia agrees with the findings and thanks the RIG staff for their
           cooperation. In particular, we wish to thank the auditors for their
           recommendations to strengthen Mission guidance on our annual Activity
           Implementation Reviews (AIR).

           USAID/Russia has long incorporated into Annual Reviews the
           comparison of activity results with each program’s planned results. The
           suggestions of the RIG auditors about the AIRs will further improve our
           internal procedures.




                                                                                  8
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig




                                            9
